HHS/OIG, Audit -"Review of Alaskas Accounts Receivable System for Medicaid Provider Overpayments,"(A-09-04-00047)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Alaskas Accounts Receivable
System for Medicaid Provider Overpayments," (A-09-04-00047)
October 20, 2004
Complete
Text of Report is available in PDF format (285 kb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objectives of this review were to determine if the State reported Medicaid provider overpayments according to Federal
regulations and adequately performed and documented procedures to support credit adjustments.  We found that during
the period October 1, 2002 through September 30, 2003, the State did not report Medicaid provider overpayments according
to Federal regulations.  Specifically, the State did not report $1,874,978 in overpayments and netted other overpayments
against expenditures.  The State did not properly report overpayments because it did not have adequate policies and
procedures.  As a result, the State did not refund the Federal share of $1,092,663, and Centers for Medicare and Medicaid
Services (CMS) is unable to monitor the total amount of overpayments each year.  We recommended that the State:  (1)
report the $1,874,978 in overpayments on the CMS-64, thereby crediting the Federal share of $1,092,663 and (2) establish
policies and procedures to ensure that all overpayments are reported according to Federal regulations.  The State
agency concurred with our findings and initiated corrective action.